                                                                                        ODce ofInspectm General

                                                                                        US.Department of Homeland Security
                                                                                        1111 Broadway, Suite 1200
                                                                                        Oakland, California 94607


                                                                                       Homeland
                                                                                       Security
                                                    August 10,2005


MEMORANDUM FOR:                      Karen E. Armes
                                     Acting Regional Director


FROM:
                                     Director, Grant Program Management Audit Division

SUBJECT:                            Audit of Kern County, California
                                    Bakersfield, Cat#ornia
                                    Public Assislance Idenlif;calionNumber 029-00000
                                    FEMA Disaster Number 1203-DR-CA
                                    Audit Report Number DS-14-05

The Office of Inspector General (OIG) audited public assistance grant funds awarded to Kern
County, California (County). The objective of the audit was to determine whether the County
expended and accounted for Federal Emergency Management Agency (FEMA) funds according to
federal regulations and FEMA guidelines.

The County received a public assistance grant award of $6.5 million fiom the California Office of
Emergency Services (OES), a FEMA grantee, for recovery efforts resulting fiom severe winter
storms and flooding beginning on February 2, 1998. The award provided 75 percent federal funding
for 24 large projects and 109 small projects.' The audit covered the period February 2, 1998, to
August 27,2001, and included a review of five large projects with a total award of $4.6 million.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included review of FEMA, OES, and County records, a judgmentd sample of
project expenditures, and other auditing procedures considered necessary under the circumstances.

The audit confinned that the County expended and accounted for the FEMA funds according to
federal regulations and FEMA guidelines. The OIG informed County, OES, and FEMA Region IX
oficials of the audit results on July 15,2005. Since this report contains no recommendations, a
response is not required. Should you have any questions concerning fhls report, please contact me at
(5 10) 627-7011. Key contributors to this assignment were Hurnbert~Melara, Trudi Powell, and
Sabinus Njoku.

 Federal regulations in effect at the time of the disaster set the large project threshold at $47,100.
